              Audit Report



Completeness of the Social Security
Administration’s Disability Claims
              Files




        A-01-13-23082 | July 2014
MEMORANDUM


Date:      July 29, 2014                                                      Refer To:

To:        The Commissioner
From:      Inspector General
Subject:   Completeness of the Social Security Administration’s Disability Claims Files (A-01-13-23082)

           The attached final report presents the results of our audit. Our objective was to determine
           whether staff fully developed all available medical evidence before making a disability
           determination.

           If you wish to discuss the final report, please call me or have your staff contact
           Steven L. Schaeffer, Assistant Inspector General for Audit, at (410) 965-9700.




                                                           Patrick P. O’Carroll, Jr.

           Attachment
Completeness of the Social Security Administration’s
Disability Claims Files
A-01-13-23082
July 2014                                                                   Office of Audit Report Summary

Objective                                               Our Findings

To determine whether staff fully developed all          Staff did not always obtain all existing medical
available medical evidence before making a              evidence before making a disability determination.
disability determination.                               Although DDSs generally followed policy, we found
                                                        staff was unable to obtain all evidence at the initial and
Background                                              reconsideration levels because the claimant did not tell
                                                        them about all sources or the sources did not respond to
Claimants are required to prove they are disabled       the DDS’ requests. Additionally, ODAR staff did not
by providing medical and other evidence of              always obtain all existing evidence at the hearing level
disability. However, the Social Security                and did not follow the regulations and policies to make
Administration (SSA) is responsible for making          every reasonable effort to obtain evidence and
every reasonable effort to help the claimant get        document the attempts in the disability folder.
medical reports from medical sources. The
Agency considers all evidence in the claimant’s         Based on our sample results, we estimated that about
case record when it makes any determination.            214,500 cases contained medical evidence at the
                                                        hearing level that did not appear in the file at the DDS
On February 20, 2014, SSA’s Notice of Proposed
                                                        level, even though it existed at the time. Additionally,
Rulemaking—Submission of Evidence in
                                                        we estimated that about 235,000 claimants reported
Disability Claims—was published in the Federal
Register. This proposed regulation would require        medical sources when requesting a hearing, but ODAR
that claimants inform the Agency about, or              did not obtain medical evidence from them.
submit all evidence known to them that relates to,
their disability claim (subject to two exceptions).     Our Recommendation

We identified a population of                           We recommend that SSA remind ODAR staff to follow
627,587 individuals who had a hearing decision          the regulations and policies to make every reasonable
in Fiscal Year 2012. From this population, we           effort to obtain all evidence and document attempts in
reviewed a sample of 275 cases to determine             the disability folder.
whether, at the initial or reconsideration level, the
disability determination services (DDS) could           SSA agreed with the recommendation.
have obtained any evidence provided at the
hearing level. If the evidence was available at
the time of the initial or reconsideration level, we
determined why it was not obtained.

Additionally, we determined whether the Office
of Disability Adjudication and Review (ODAR)
obtained medical evidence from all sources
alleged by the claimant at the hearing level.
TABLE OF CONTENTS
Objective ..........................................................................................................................................1
Background ......................................................................................................................................1
Results of Review ............................................................................................................................2
     Medical Evidence at the DDS Level ..........................................................................................2
           Reasons DDSs Did Not Obtain Evidence ............................................................................3
           Characteristics of the Cases Lacking Documentation at the DDS Level.............................4
           Requests for Claimants’ Medical Sources ...........................................................................5
     Medical Evidence at the Hearing Level .....................................................................................5
     Potential Savings ........................................................................................................................7
Conclusions ......................................................................................................................................7
Recommendation .............................................................................................................................8
Agency Comments ...........................................................................................................................8
Appendix A – Initial Disability Determination and Appeals Process ........................................ A-1
Appendix B – Submission of Evidence in Disability Claims Notice of Proposed Rulemaking B-1
Appendix C – Scope, Methodology, and Sample Results.......................................................... C-1
Appendix D – Sample Cases by Office ...................................................................................... D-1
Appendix E – Potential Savings Estimate...................................................................................E-1
Appendix F – Agency Comments ............................................................................................... F-1
Appendix G – Major Contributors.............................................................................................. G-1




Completeness of SSA’s Disability Claims Files (A-01-13-23082)
ABBREVIATIONS
AC                   Appeals Council

ALJ                  Administrative Law Judge

C.F.R.               Code of Federal Regulations

DDS                  Disability Determination Services

DI                   Disability Insurance

Fed. Reg.            Federal Register

FY                   Fiscal Year

NPRM                 Notice of Proposed Rulemaking

ODAR                 Office of Disability Adjudication and Review

POMS                 Program Operations Manual System

SSA                  Social Security Administration

SSI                  Supplemental Security Income

U.S.C.               United States Code




Completeness of SSA’s Disability Claims Files (A-01-13-23082)
OBJECTIVE
Our objective was to determine whether staff fully developed all available medical evidence
before making a disability determination.

BACKGROUND
A determination as to disability under either Title II or XVI of the Social Security Act 1 requires
medical evidence from an acceptable medical source to establish the medically determinable
impairment. Claimants are required to prove their disability by providing medical and other
evidence. However, the Social Security Administration (SSA) is responsible for making every
reasonable effort 2 to help the claimant get medical reports from the claimant’s medical sources
when the claimant gives SSA permission to request the reports. The Agency considers all
evidence in the claimant’s case record when it makes any determination.

Generally, State disability determination services (DDS) make the initial disability determination
using SSA’s regulations. 3 Before the Agency determines that a claimant is not disabled, it
develops the claimant’s complete medical history for at least the 12 months preceding the month
the application is filed, unless there is reason to believe that development of an earlier period is
necessary or if the claimant alleged the disability began less than 12 months after the application
was filed. 4 If an individual disagrees with the initial determination, he/she can file an appeal
within 60 days after the date of notification of the determination. In most cases, an individual
may request up to four levels of appeal: (1) reconsideration by a DDS, (2) hearing by an
administrative law judge (ALJ), (3) review by the Appeals Council (AC), and (4) review by a
Federal Court. 5 See Appendix A for more information about the initial disability determination
and appeals processes.

SSA proposed a rule to require that claimants inform the Agency about, or submit all evidence
known to them that relates to, their disability claim (subject to two exceptions). Specifically, this
proposed rule—if finalized—would require that claimants or their representatives submit all
evidence obtained from any source in its entirety, unless subject to an exception. This proposal
also included a requirement that representatives help claimants obtain the information or


1
 SSA provides Disability Insurance (DI) benefits and Supplemental Security Income (SSI) disability payments to
eligible individuals under Social Security Act §§ 223 and 1611, 42 U.S.C. §§ 423 and 1382.
2
  To make every reasonable effort, SSA will (1) make an initial request for evidence from the claimant’s medical
source, (2) if it is not received, make one follow-up request any time between 10 and 20 calendar days after the
initial requests, and (3) allow a minimum of 10 calendar days from the follow-up request for the medical sources to
reply. 20 C.F.R. §§ 404.1512(d)(1) and 416.912(d)(1). See also SSA, POMS, DI 22505.001B4
(December 17, 2013).
3
    20 C.F.R. §§ 404.1503 and 416.903. SSA, POMS, DI 00115.001D (October 11, 2012).
4
    20 C.F.R. §§ 404.1512(d) and 416.912(d).
5
    20 C.F.R. §§ 404.909, 404.933, 404.968, 404.981, 416.1409, 416.1433, 416.1468, and 416.1481.



Completeness of SSA’s Disability Claims Files (A-01-13-23082)                                                         1
evidence the claimant must submit. This rule would update SSA’s current requirement that
claimants notify the Agency about everything that shows they are disabled. 6 On
February 20, 2014, SSA’s Notice of Proposed Rulemaking—Submission of Evidence in
Disability Claims—was published in the Federal Register. 7 SSA accepted public comments
through April 21, 2014 (see Appendix B). SSA’s next step is to evaluate the public comments.

We obtained a file of 819,947 hearing decision records from Fiscal Year (FY) 2012. From this
file, we removed dismissals, duplicate records, and all records other than initial hearing requests,
which gave us a population of 627,587 individuals who had a hearing in FY 2012. From this
population, we reviewed a sample of 275 cases. 8 For each case, we reviewed the electronic
disability folder to determine whether, at the initial or reconsideration level, the DDS could have
obtained medical evidence provided at the hearing level. We determined why the Agency did
not obtain medical evidence that was available at the initial or reconsideration level.
Additionally, we determined whether the Office of Disability Adjudication and Review (ODAR)
obtained medical evidence from all sources alleged by the claimant at the hearing level. See
Appendix C for more information on our scope and methodology.

RESULTS OF REVIEW
Staff did not always fully develop all available medical evidence before making a disability
determination. Although DDSs generally followed policy, we found staff was unable to obtain
all evidence at the initial and reconsideration levels because the claimant did not tell them about
all sources or the sources did not respond to the DDS’ requests. Additionally, ODAR staff did
not always obtain all available evidence at the hearing level or follow the regulations and
policies to make every reasonable effort to obtain evidence and document the attempts in the
disability folder.

Based on our sample results, we estimated that about 214,500 cases contained medical evidence
at the hearing level that DDS staff could have obtained at the initial decision level but did not.
Additionally, we estimated that about 235,000 claimants reported medical sources when
requesting a hearing, but ODAR did not obtain medical evidence for them.

Medical Evidence at the DDS Level
Of the 275 cases in our sample,

      181 had no issues with medical evidence obtained at the DDS level, and




6
    20 C.F.R. §§ 404.1512 and 416.912.
7
    79 Fed. Reg. 9663-9670 (February 20, 2014).
8
    Of the 275 sample cases, 244 had a full hearing while 31 were decided without a full hearing.



Completeness of SSA’s Disability Claims Files (A-01-13-23082)                                         2
    94 had medical evidence at the hearing level that did not appear in the file at the DDS level,
     even though it existed at the time. 9 The medical evidence in these cases related to the time
     period and alleged impairment(s) the DDS was evaluating at the initial and/or reconsideration
     levels. However, we could not conclude whether the disability determination would have
     changed or still resulted in an appeal if the DDSs had obtained this evidence.

Reasons DDSs Did Not Obtain Evidence
There were three main reasons DDS staff did not obtain the medical evidence.

1. DDSs could not request the medical evidence in 55 cases because the claimant did not inform
   them of the medical source. For example, a woman filed for disability benefits in April 2011
   alleging that she had a heart condition. She did not mention her cardiologist when asked who
   would have medical records about her condition. The DDS denied her claim in July 2011.
   She requested a hearing in September 2011 and provided ODAR with records from the
   cardiologist. The ALJ allowed her claim in July 2012.

2. DDSs requested the medical evidence in 17 cases but did not receive it. 10 For example, a
   man filed for disability benefits in April 2010 alleging he had a mental impairment. He told
   SSA he was seeing a counselor once a week. The DDS requested information from this
   counselor in June, July, and December 2010 and again January 2011. The DDS denied his
   claim in January 2011. He requested a hearing 1 month later, and his counselor finally
   provided his medical records in May 2011. The ALJ allowed his claim in January 2012. An
   advocate represented the claimant throughout the claims process.

3. DDSs did not attempt to obtain the medical evidence in four cases. 11 For example, a woman
   filed for disability benefits in December 2010 alleging she had a mental impairment. When
   filing the claim, she reported to SSA that she was seeing a therapist. The DDS denied the
   claim in March 2011 without requesting evidence from the therapist. The claimant’s
   representative filed a hearing in April and provided ODAR with medical records from the
   therapist. The ALJ denied her claim in November 2011.

Additionally, 18 cases had more than 1 reason DDS staff did not obtain medical evidence:

    16 cases fell into Categories 1 and 2, and



9
  For most of these cases, DDS staff could not request the medical evidence because the claimant did not inform
them of the source.
10
  In these 17 cases, the DDS made every reasonable effort to obtain the evidence, as instructed in
20 C.F.R. §§ 404.1512(d) and 416.912(d).
11
   The DDS did not request the evidence in these cases and did not document any reason on the case development
summary worksheet for not requesting the evidence. DDSs do not make routine requests for medical information to
a source who is consistently uncooperative (that is, will not submit information on any patient), deceased, or retired.
SSA, POMS, DI 22505.006A3 (September 13, 2012) and DI 20503.001E (April 17, 2014).



Completeness of SSA’s Disability Claims Files (A-01-13-23082)                                                         3
      2 cases fell into Categories 1 and 3.

Characteristics of the Cases Lacking Documentation at the DDS Level
We analyzed the cases lacking documentation at the DDS level to look for trends. We found

      61 cases were allowed at the hearing level;

      35 cases were filed in person, 36 were filed by telephone, 11 were filed over the Internet,
       2 were filed by mail, 2 were filed by a representative, and 8 were filed by indeterminable
       means;

      1 case had the medical source section of the disability report left blank;

      25 cases had missing medical evidence related to a mental impairment;

      66 cases had missing medical evidence that was available when the claim was initially filed;
       and

      90 cases had a representative at some point during the claim process. Representatives must
       obtain and submit evidence and assist with SSA’s or DDS’ requests for evidence. 12 See
       Table 1 for a summary of the represented cases.

                                 Table 1: Summary of Represented Cases
                                                   Represented at the
                                                      DDS Level                  Represented at the
                     Category 13
                                                      (initial claims,             Hearing Level
                                                 reconsiderations, or both)
         Claimant did not inform DDS of
                                                             44                              70
         the medical evidence
         DDS requested medical
                                                             21                               31
         evidence but did not receive it
         DDS did not attempt to obtain
                                                              4                               6
         the medical evidence
         No Issues with Medical
         Evidence Obtained at the DDS                       116                              161
         Level




12
  SSA, POMS, GN 03970.010 (August 13, 2013). Also, see OIG report Claimant Representatives at the DDS Level
(A-01-13-13097), February 2014.
13
     A case may be in more than one category or in both the DDS and Hearing Level columns.



Completeness of SSA’s Disability Claims Files (A-01-13-23082)                                             4
Requests for Claimants’ Medical Sources
SSA asks claimants to identify their medical sources. SSA’s policy requires that employees
explain to the claimant the importance of identifying all medical sources to assist the DDS in
processing the case. 14 Specifically, when a person applies for disability benefits, SSA asks the
person (regardless of whether he/she applies in-person, on the telephone, or using the Internet):

           Tell us who may have medical records about any of your physical and/or mental
           condition(s) (including emotional or learning problems) that limit your ability to
           work. This includes doctors' offices, hospitals (including emergency room visits),
           clinics, and other health care facilities. Tell us about your next appointment, if you
           have one scheduled.

Once the claimant files an application for disability benefits, SSA sends the claim to the DDS.
The DDS sent correspondence (such as forms for the claimant to complete or notices about a
consultative examination) in all 94 sample cases in which medical evidence could have been
obtained sooner. Also, we found that some, but not all, DDSs sent the claimant an introduction
letter. In these introduction letters, the DDS examiner describes the disability determination
process and informs the claimants of their reporting responsibilities, for example reporting
whether he/she has been, or is going, to a doctor, hospital, emergency room, clinic, or treatment
facility other than those listed on the application. These introduction letters are not mandatory
and are not always sent.

Additionally, when a claimant’s application is denied, SSA notifies the person of his/her appeal
rights. If a claimant decides to appeal an initial determination, SSA again requests the claimant
to, “Tell us who may have medical records or other information about your illnesses, injuries, or
conditions since you last completed a disability report.” 15

Medical Evidence at the Hearing Level
Of the 275 cases in our sample, claimants in 195 cases identified medical sources when filing
their appeal, but ODAR did not always obtain medical evidence from these sources.
Additionally, staff did not document attempts to obtain this evidence.

After the claimant files a hearing request, ODAR sends the claimant (and representative if
appropriate) a copy of all the evidence in the electronic folder. Additionally, ODAR informs the
claimant that it is their responsibility to provide medical evidence related to their impairment,
including all medical records from 1 year before the alleged onset date to the present and any
other relevant medical, school, or other records not already in file.




14
     SSA, POMS, DI 11005.001B3 (July 10, 2014).
15
     SSA, Disability Report – Appeal - Form SSA-3441-BK, (08-2010) ef (07-2012), p. 2.



Completeness of SSA’s Disability Claims Files (A-01-13-23082)                                       5
Additionally, ODAR’s business process is that staff requests the claimant or representative
identify medical sources and provide all evidence that is available from those sources. 16 If the
claimant or representative does not provide the evidence within 30 days, ODAR staff should
follow up. Depending on why the evidence was not provided, staff may request the evidence
directly from the medical source. If ODAR staff requested the evidence and did not receive it
within 10 days after the initial telephone or fax request, or within 15 days after the initial written
request, ODAR staff must follow up with the medical source. If ODAR staff still does not
receive the evidence within 10 days of the telephone or fax followup, or 15 days after the written
followup, they should contact the source again to determine the status. 17

As shown in Table 2, in 103 of the 275 sample cases, the claimant reported additional medical
sources at the hearing level, but ODAR did not obtain medical evidence from these sources.
ODAR documented attempts to obtain this medical evidence in only 1 of the 103 cases.
Additionally, in 11 cases, ODAR purchased a consultative examination, although SSA’s
regulations generally require that staff make every reasonable effort to obtain evidence from the
claimant’s medical sources before requesting a consultative examination.18
                              Table 2: Medical Sources Reported to ODAR
                                      Total Cases            Cases                                 Cases with a
                                                                             Cases Denied
                                       in Sample            Allowed                               Representative
Reported medical sources
for which ODAR obtained                         92           59 (64%)           33 (36%)                 87 (95%)
medical evidence
Reported medical sources
but ODAR did not obtain                     103              74 (72%)           29 (28%)                 93 (90%)
medical evidence
Claimant informed ODAR
there were no other
                                                80           47 (59%)           33 (41%)                 70 (88%)
medical sources with
medical evidence
               Total                        275            180 (66%)            95 (34%)               250 (91%)

For example, a woman filed for disability benefits alleging she had bipolar disorder. The DDS
denied her initial claim in January 2011, and she requested a hearing in May 2011. She had a



16
  SSA requires that staff make every reasonable effort to obtain medical records from the individual’s medical
sources covering at least the 12 months preceding the month in which he/she filed the application unless there is
reason to believe development of an earlier period is necessary or the individual says his/her disability began fewer
than 12 months before the application was filed and to document all attempts to obtain the evidence.
20 C.F.R. §§ 404.1512(d) and 416.912(d), SSA, HALLEX I-2-5-14 (September 28, 2005).
17
     SSA, HALLEX 1-2-5-14 (September 28, 2005).
18
     20 C.F.R. §§ 404.1512(e) and 416.912(e).



Completeness of SSA’s Disability Claims Files (A-01-13-23082)                                                           6
non-attorney representative and waived her right to appear at the hearing. When filing the
hearing request, she reported a 5-day hospital stay in February 2011 because of a suicide attempt
and outpatient therapy with a new counselor. ODAR did not obtain this new medical evidence.
The file did not document any contacts with the non-attorney representative or attempts to obtain
this evidence. ODAR denied her claim in April 2012 for not attending a consultative
examination. The claimant filed a new claim in May 2013, which was denied by the DDS but
pending at ODAR as of July 2014.

Potential Savings
Had staff been able to obtain all existing medical evidence for the cases in our sample at the
DDS level, the claims may not have needed a hearing. Therefore, SSA would achieve
administrative cost savings for any case that was not appealed. For Fiscal Year 2012, SSA
reported that it cost the Agency $607 to process an initial DI claim and $463 to process an initial
SSI claim, while it cost $2,328 to process a DI case and $1,431 to process an SSI case at the
hearing level. 19

We could not determine how many, if any, of our sample cases would still be appealed to the
hearing level if the case had been fully developed. 20 Therefore, we do not know what percentage
of cases would have a decisional change. However, if 5 percent of the cases that were not fully
developed at the DDS level did not need a hearing, SSA could save about $23 million. These
dollar savings could be more or less because we do not know what percentage of cases would not
be appealed to the hearing level. (See Appendix E for this calculation.)

CONCLUSIONS
Staff did not always obtain all existing medical evidence before making a disability
determination. Although DDSs generally followed policy, we found staff was unable to obtain
all evidence at the initial and reconsideration levels because the claimant did not tell them about
all sources or the sources did not respond to the DDS’ requests. SSA’s proposed regulation may
encourage claimants or their representatives to provide the Agency with all medical sources
earlier in the disability claims process. We plan to do further work on this issue once a decision
is made regarding the proposed regulation.

Additionally, ODAR staff did not always obtain all existing evidence at the hearing level and did
not follow the regulations and policies to make every reasonable effort to obtain evidence and
document the attempts in the disability folder. Based on our sample results, we estimated that
staff did not—or could not—fully develop approximately 214,500 cases at the DDS level. We
also estimated that about 235,000 cases were not fully developed at the hearing level.



19
  SSA, Office of Financial Policy and Operations, Division of Cost Analysis, Cost Analysis System, SC3-SUM
Report, FY 2012, Category Codes 01-02 Claims Disabled and 02-02 Hearings, pgs. 63, 66, 116 and 119.
20
     See Appendix D for list of initial and reconsideration sample cases by office.



Completeness of SSA’s Disability Claims Files (A-01-13-23082)                                                7
Even if a small percentage of the cases at the DDS level resulted in the case not being appealed
to the hearing level, SSA could save administrative costs in processing these cases.

RECOMMENDATION
We recommend that SSA remind ODAR staff to follow the regulations and policies to make
every reasonable effort to obtain all evidence and document attempts in the disability folder.

AGENCY COMMENTS
SSA agreed with the recommendation; see Appendix F.




Completeness of SSA’s Disability Claims Files (A-01-13-23082)                                      8
                                        APPENDICES




Completeness of SSA’s Disability Claims Files (A-01-13-23082)
Appendix A – INITIAL DISABILITY DETERMINATION AND
             APPEALS PROCESS
Initial Disability Determination Process
Generally, State disability determination services (DDS) make the initial disability
determinations for the Social Security Administration (SSA). SSA reimburses the States all
allowable DDS expenses and oversees the quality of the DDS’ work. DDS staff use SSA’s
regulations to request the medical evidence and other evidence and evaluate the evidence to
determine whether a claimant meets the definition of disability under the Social Security Act.

Appeals Process
If the claimant disagrees with the initial determination, he/she can file an appeal within 60 days
from the date of notification of the determination. There are up to four levels of appeal:
reconsideration, hearing, Appeals Council (AC) review, and Federal Court review. 1

Reconsideration
DDS staff who did not make the initial determination will evaluate all existing evidence plus any
additional evidence submitted and make a new determination.

Hearing
An administrative law judge (ALJ) generally conducts a hearing at a hearing office. Before the
hearing, the claimant and his/her representative may examine the claim(s) file and submit new
evidence. At the hearing, the ALJ can question the claimant and any witnesses the claimant
brings. The ALJ may request other witnesses, such as medical or vocational experts, to testify at
the hearing. The claimant and his/her representative may also question the witnesses.

The ALJ does not determine whether the DDS’ decision was correct but issues a new (de novo)
decision based on the evidence. If the claimant waives the right to appear at the hearing, the ALJ
may make a decision based on the evidence on file and any new evidence submitted for
consideration.




1
    20 C.F.R. §§ 404.909, 404.933, 404.968, 404.981, 416.1409, 416.1433, 416.1468, and 416.1481.



Completeness of SSA’s Disability Claims Files (A-01-13-23082)                                      A-1
Under certain circumstances, an attorney advisor may conduct prehearing proceedings before the
hearing. As part of the prehearing proceedings, the attorney advisor, in addition to reviewing the
existing record, may request additional evidence and schedule a conference with the parties. If,
after completion of these proceedings the attorney advisor can make a decision that is fully
favorable, an attorney advisor may issue the decision. 2

AC Review
The AC consists of administrative appeal judges and appeal officers. A claimant who is
dissatisfied with the hearing decision can ask the AC to review that decision. The AC may deny,
dismiss, or grant a request for review. If the AC denies or dismisses the request for review, the
hearing decision becomes SSA’s final decision. If the AC grants the request for review, it can
(1) issue its own decision affirming, modifying, or reversing the ALJ decision or (2) remand the
case to the hearing office for a new decision, additional evidence, or other action. If the AC
issues its own decision, that decision becomes SSA’s final decision. The AC may also review a
case within 60 days of the hearing decision on its own motion; that is, without a claimant
requesting the review.

Federal Court Review
If a claimant is dissatisfied with SSA’s final decision, he/she may file a civil action with the
following Federal Courts in this order: U.S. District Court, U.S. Court of Appeals (Circuit
Court), and the U.S. Supreme Court. Federal Courts have the power to dismiss, affirm, modify,
or reverse SSA’s final decisions and may remand cases to SSA for further action, including a
new decision. If SSA’s final decision is supported by “substantial evidence” and consistent with
the Social Security Act and the Commissioner’s regulations the court should affirm the decision.




2
    20 C.F.R. §§ 404.942 and 416.1442.



Completeness of SSA’s Disability Claims Files (A-01-13-23082)                                  A-2
Appendix B – SUBMISSION OF EVIDENCE IN DISABILITY
             CLAIMS NOTICE OF PROPOSED RULEMAKING
Below is an excerpt from the Federal Register with the Social Security Administration’s (SSA)
Notice of Proposed Rulemaking related to the submission of evidence in disability claims. 1

      SOCIAL SECURITY ADMINISTRATION
      20 CFR Parts 404, 405, and 416
      [Docket No. SSA–2012–0068]
      RIN 0960–AH53
      Submission of Evidence in Disability Claims

      AGENCY: Social Security Administration.

      ACTION: Notice of proposed rulemaking (NPRM).

      SUMMARY: We propose to clarify our regulations to require you to inform us about or
      submit all evidence known to you that relates to your disability claim, subject to two
      exceptions for certain privileged communications. This requirement would include the
      duty to submit all evidence obtained from any source in its entirety, unless subject to one
      of these exceptions. We also propose to require your representative to help you obtain
      the information or evidence that we would require you to submit under our regulations.
      These modifications to our regulations would better describe your duty to submit all
      evidence that relates to your disability claim and enable us to have a more complete case
      record on which to make more accurate disability determinations and decisions.

      DATES: To ensure that your comments are considered, we must receive them by no
      later than April 21, 2014.




1
    Submission of Evidence in Disability Claims, 79 Fed. Reg. 9663-9670 (February 20, 2014).



Completeness of SSA’s Disability Claims Files (A-01-13-23082)                                       B-1
Appendix C – SCOPE, METHODOLOGY, AND SAMPLE RESULTS
To conduct our review, we:

   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s regulations, proposed regulations, policies, and procedures.

   Obtained a file of 819,947 hearing decision records from Fiscal Year (FY) 2012. From this
    file, we removed dismissals, duplicate records, and all records other than initial hearing
    requests to end up with a population of 627,587 individuals who had a hearing in FY 2012.
    We tested the data and concluded they were reliable to meet our audit objective.

   Randomly sampled 275 cases from the population of 627,587. For each case, we reviewed
    the electronic disability folder to determine whether, at the initial or reconsideration level, the
    disability determination services (DDS) could have obtained any medical evidence provided
    at the hearing level. If the medical evidence could have been obtained at the initial or
    reconsideration level, we determined why it was not obtained. Additionally, we determined
    whether medical evidence was obtained by the Office of Disability Adjudication and Review
    (ODAR) from all sources alleged by the claimant at the hearing level.

   Calculated potential savings if cases were completed at the DDS level and did not need a
    hearing.

Sample Results and Projections
                              Table C–1: Population and Sample Size
                              Population Size                          627,587
                              Sample Size                                  275

 Table C–2: Number of Cases Where the Evidence at the Hearing Level Could Have Been
                      Obtained at the DDS Level but Was Not
                                          Attribute Projections
                    Sample cases                                                      94
                    Point estimate                                               214,521
                    Projection lower limit                                       184,768
                    Projection upper limit                                       245,884
                      Note Projections were calculated at the 90-percent confidence level.




Completeness of SSA’s Disability Claims Files (A-01-13-23082)                                      C-1
Table C–3: Number of Cases Where the Claimant Reported Sources to ODAR, but ODAR
                       did not Obtain this Medical Evidence
                                          Attribute Projections
                     Sample cases                                                    103
                     Point estimate                                              235,060
                     Projection lower limit                                      204,541
                     Projection upper limit                                      266,855
                      Note Projections were calculated at the 90-percent confidence level.

We conducted our audit from November 2013 through July 2014 in Boston, Massachusetts. The
entities audited were DDSs under the Office of the Deputy Commissioner for Operations and
administrative law judges under the Office of the Deputy Commissioner for Disability
Adjudication and Review. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit objectives.




Completeness of SSA’s Disability Claims Files (A-01-13-23082)                                   C-2
Appendix D – SAMPLE CASES BY OFFICE
Below is a summary of the initial and reconsideration cases in our sample by site. We did not
find any sites that specifically stood out. Similarly, we did not find any patterns for hearing
offices that did not obtain all the evidence at the hearing level.

      Table D–1: Sample Cases by Office that Adjudicated the Initial and Reconsideration
                                          Claims
                                                                                              Cases
                                                                           Cases with
                  Initial Level              Reconsideration Level                            with           Total
                                                                           No Issues
                                                                                             Issues 1
         Alabama DDS                         None                            5     71%      2     29%            7
         Alaska DDS                          None                            0      0%      0      0%            0
         Arizona DDS                         Arizona DDS                     3    100%      0      0%            3
         Arizona DDS                         Pennsylvania DDS                1    100%      0      0%            1
         Arkansas DDS                        Arkansas DDS                    5     83%      1     17%            6
         Arkansas DDS                        California DDS                  1     50%      1     50%            2
         California DDS                      California DDS                  6     50%      6     50%           12
         California DDS                      Idaho DDS                       1     50%      1     50%            2
         California DDS                      None                            1    100%      0      0%            1
         Chicago Federal Unit                None                            0      0%      1    100%            1
         Chicago Federal Unit                Wisconsin DDS                   1    100%      0      0%            1
         Colorado DDS                        None                            0      0%      2    100%            2
         Connecticut DDS                     Connecticut DDS                 2    100%      0      0%            2
         Dallas Federal Unit                 None                            1    100%      0      0%            1
         Delaware DDS                        Delaware DDS                    1    100%      0      0%            1
         District of Columbia DDS            District of Columbia DDS        0      0%      0      0%            0
         Florida DDS                         Florida DDS                     5     56%      4     44%            9
         Georgia DDS                         Georgia DDS                     3     43%      4     57%            7
         Georgia DDS                         Mississippi DDS                 1     33%      2     67%            3
         Georgia DDS                         Southeast Federal Unit          2     67%      1     33%            3
         Guam DDS                            None                            0      0%      0      0%            0
         Hawaii DDS                          Hawaii DDS                      0      0%      0      0%            0
         Idaho DDS                           Idaho DDS                       0      0%      0      0%            0
         Illinois DDS                        Illinois DDS                    5     42%      7     58%           12
         Illinois DDS                        None                            1    100%      0      0%            1
         Indiana DDS                         Indiana DDS                     3     75%      1     25%            4
         Iowa DDS                            Iowa DDS                        1     50%      1     50%            2
         Kansas DDS                          Kansas DDS                      1    100%      0      0%            1
         Kentucky DDS                        Kentucky DDS                    3     38%      5     63%            8
         Louisiana DDS                       None                            5     71%      2     29%            7
         Maine DDS                           Baltimore Federal Unit          1    100%      0      0%            1
         Maine DDS                           Maine DDS                       1     50%      1     50%            2
         Maryland DDS                        Maryland DDS                    2    100%      0      0%            2



1
    Ninety-four had medical evidence at the hearing level that staff could have obtained at the DDS level.



Completeness of SSA’s Disability Claims Files (A-01-13-23082)                                                        D-1
                                                                               Cases
                                                                Cases with
              Initial Level            Reconsideration Level                   with      Total
                                                                No Issues
                                                                              Issues 1
     Massachusetts DDS                 Massachusetts DDS          2    50%    2    50%       4
     Michigan DDS                      None                       6    55%    5    45%      11
     Minnesota DDS                     Minnesota DDS              2   100%    0     0%       2
     Mississippi DDS                   Mississippi DDS            2    67%    1    33%       3
     Missouri DDS                      None                       5    71%    2    29%       7
     Montana DDS                       Montana DDS                0     0%    1   100%       1
     Nebraska DDS                      Nebraska DDS               0     0%    0     0%       0
     Nevada DDS                        Nevada DDS                 1   100%    0     0%       1
     New Hampshire DDS                 New Hampshire DDS          1   100%    0     0%       1
     New Jersey DDS                    New Jersey DDS             4    80%    1    20%       5
     New Mexico DDS                    New Mexico DDS             3    75%    1    25%       4
     New York Federal Unit             New Jersey DDS             0     0%    1   100%       1
     New York DDS                      None                      10    77%    3    23%      13
     North Carolina DDS                North Carolina DDS         5    63%    3    38%       8
     North Dakota DDS                  North Dakota DDS           0     0%    0     0%       0
     Ohio DDS                          Ohio DDS                  14    70%    6    30%      20
     Oklahoma DDS                      Oklahoma DDS               2   100%    0     0%       2
     Oklahoma DDS                      None                       1   100%    0     0%       1
     Oregon DDS                        Oregon DDS                 2    50%    2    50%       4
     Pennsylvania DDS                  None                      13    81%    3    19%      16
     Philadelphia Federal Unit         Virginia DDS               1   100%    0     0%       1
     Puerto Rico DDS                   New York DDS               1    50%    1    50%       2
     Puerto Rico DDS                   Puerto Rico DDS            1    50%    1    50%       2
     Rhode Island DDS                  Rhode Island DDS           1   100%    0     0%       1
     San Francisco Federal Unit        Arizona DDS                1   100%    0     0%       1
     San Francisco Federal Unit        None                       1    33%    2    67%       3
     South Carolina DDS                South Carolina DDS         3   100%    0     0%       3
     South Dakota DDS                  South Dakota DDS           0     0%    0     0%       0
     Southeast Federal Unit            Alabama DDS                1   100%    0     0%       1
     Southeast Federal Unit            Southeast Federal Unit     0     0%    1   100%       1
     Tennessee DDS                     Tennessee DDS             10    67%    5    33%      15
     Texas DDS                         Texas DDS                 10    77%    3    23%      13
     U.S. Virgin Islands               U.S. Virgin Islands        0     0%    0     0%       0
     Utah DDS                          Utah DDS                   2   100%    0     0%       2
     Vermont DDS                       None                       0     0%    0     0%       0
     Virginia DDS                      Virginia DDS               5    71%    2    29%       7
     Virginia DDS                      None                       1   100%    0     0%       1
     Washington DDS                    Washington DDS             4    50%    4    50%       8
     West Virginia DDS                 West Virginia DDS          2    67%    1    33%       3
     Wisconsin DDS                     Wisconsin DDS              2    67%    1    33%       3
     Wyoming DDS                       Wyoming DDS                0     0%    0     0%       0
     TOTAL                                                      181    66%   94    34%     275




Completeness of SSA’s Disability Claims Files (A-01-13-23082)                                    D-2
Appendix E – POTENTIAL SAVINGS ESTIMATE
The following tables illustrate how we calculated potential savings for the Disability Insurance
(DI) and Supplemental Security Income (SSI) cases that may not have needed a hearing if all the
medical evidence was obtained at the disability determination services (DDS) level.

             Table E–1: Administrative Costs to Process a Claim at the Hearing Level 1
                                                           Administrative Cost
                                   Type of Claim
                                                            to Process Claim
                                        DI only                 $2,327.88
                                        SSI only                $1,430.87

           Table E–2: Step 1 - Calculate the Percent of Each Claim Type in Our Sample
                                                       Number of
                                                                            Percent of Our
                           Type of Claim              Cases in Our
                                                                               Sample
                                                        Sample
                      DI only or Concurrent               205                        75%
                            SSI only                        70                       25%
                                Total                       275                    100%

       Table E–3: Step 2 - Calculate Savings if 5 Percent of Cases Did Not Need a Hearing
                    Estimated Cases with Medical Evidence at
      Claim Type     the Hearing Level that Could Have Been        Estimated Savings 2
                            Obtained at the DDS Level
               Savings if Percent of Cases Not Needing a Hearing was 5 Percent
     DI/Concurrent                      8,044 3                       $18,724,885
                                              4
         SSI                            2,681                          $3,836,520
          Total                                 10,725 5                                $22,561,405




1
    SSA, Cost Analysis System, SC3-SUM Report, FY 2012, Category Code 02-02 Hearings, pages 66 and 119.
2
 We multiplied the Estimated Cases with Evidence at the Hearing Level that Could Have Been Obtained at the DDS
Level” with the cost to process the claim shown in Table E–1 ($2,327.88 for DI/Concurrent and $1,430.87 for SSI).
3
    We multiplied the total in this section by the DI/Concurrent percentage in Table E–2 (10,725*75%=8,043.750).
4
    We multiplied the total in this section by the SSI percentage in Table E–2 (10,725*25%=2681.250).
5
    We multiplied the point estimate from Table C–2 by 5 percent (214,500*5%=10,725).



Completeness of SSA’s Disability Claims Files (A-01-13-23082)                                                      E-1
           Appendix F – AGENCY COMMENTS




                                             SOCIAL SECURITY
Date:      July 3, 2014                                                            Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Katherine Thornton
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Completeness of the Social Security
           Administration’s Disability Claim Files” (A-01-13-23082) - INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Gary S. Hatcher at (410) 965-0680.

           Attachment




           Completeness of SSA’s Disability Claims Files (A-01-13-23082)                                 F-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“COMPLETENESS OF THE SOCIAL SECURITY ADMINISTRATION’S DISABILITY
CLAIMS FILES” (A-01-13-23082)

Recommendation

Remind the Office of Disability Adjudication and Review staff to follow the regulations and
policies to make every reasonable effort to obtain all evidence and document attempts in the
disability folder.

Response

We agree. We will issue a Chief Judge memorandum to remind staff to follow the regulations
and policies to make “every reasonable effort” to obtain all evidence and document those
attempts. We plan to issue this memorandum shortly after IG releases its final report so that we
may include a link to the report in the memorandum.




Completeness of SSA’s Disability Claims Files (A-01-13-23082)                                  F-2
Appendix G – MAJOR CONTRIBUTORS
Judith Oliveira, Director, Boston Audit Division

Phillip Hanvy, Audit Manager

David Mazzola, Audit Manager

Katie Greenwood, Senior Auditor

Toni Paquette, Program Analyst




Completeness of SSA’s Disability Claims Files (A-01-13-23082)   G-1
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
